NO.

IN THE
SUPREME COURT OF THE UNITED STATES
OF AMERICA

GARY SIMMONDS,
Petitioner,
v.
TERRITORY OF THE VIRGIN ISLANDS,
Respondent.
On Petition for Writ of Certiorari to the
Supreme Court of the Virgin Islands.
CERTIFICATE OF WORD LIMITATIONS
As required by Supreme Court Rule 33.1(h), I, Kelechukwu Chidi

Onyejekwe, counsel for Gary Simmonds and a member of the bar of this Court,
hereby certify that the Petition for a Writ of Certiorari contains 7147 words,
excluding the parts of the Petition that are exempted by Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

36
Friday, July 16, 2021

Pec hubua C Onyejehve-

Kelechukwu Chidi Onyejekwe
Appellate Public Defender

Counsel of Record
Office of the Territorial Public Defender
P.O. Box 6040
Saint Thomas
United States Virgin Islands 00804
Telephone: 340 774-8181
Facsimile: 340 774-3052

Counsel for Petitioner

37
